April 26, 2002

GOVERNORS

SUBJECT:     Postal Service’s Breakthrough Productivity Initiative Awards
             Program (Product Number CQ-OT-02-001)

The results of our fact-finding on the Postal Service’s Breakthrough Productivity
Initiative Awards Program are attached.

If you have any questions or need additional information, please contact me at
(703) 248-2300.



Karla W. Corcoran

Attachment

cc: John E. Potter
    John M. Nolan
    Patrick R. Donahoe
    John A. Rapp
    Susan M. Duchek
                                   In response to questions raised at the March 2002 Board of
 Introduction                      Governors meeting, the Office of Inspector General (OIG)
                                   gathered the following information on the Postal Service's
                                   Breakthrough Productivity Initiative Awards Program.

                                   The program's goal is to identify opportunities for
                                   productivity improvement and reduced expenditures for mail
                                   processing, delivery, transportation, procurement, customer
                                   service, and overhead by approximately $4.5 billion over a
                                   5 - 6 year period. In addition, the program is to identify
                                   common causes for poor productivity, provide a methodical
                                   approach to implementing improved practices, provide
                                   diagnostic and corrective tools, and require “opportunity”
                                   based budgets.

                                   The program is relatively new, beginning in October 1999. It
                                   is administered under the senior vice president, Operations.
                                   In January and February of 2002, the first awards under the
                                   program were given out to 5,696 recipients. The awards
                                   totaled approximately $4.9 million and were for fiscal year
                                   (FY) 2001 performance.

                                   •
 Facts                                  Awards paid out this year totaled approximately
                                        $4.9 million, averaged $868, and ranged from $35 to
                                        $7,500 each. See Appendix I for further details on award
                                        payout by category, number of awardees per category,
                                        and amount awarded per category.

                                   •    Fifty-three percent of award recipients received
                                        61 percent of the awards for performance achievements.
                                        Forty-seven percent of recipients were awarded
                                        39 percent of the awards for operational improvements.

                                   •    Managers of awarded entities were responsible for
                                        distributions limited to no more than $7,500 per
                                        individual. Only executive and administrative schedule
                                        and Postal Career Executive Service employees were
                                        eligible for these awards. This is a separate awards
                                        program from the Economic Value Added Program.

                                   •    A number of existing systems, such as the Management
                                        Operating Data System which tracks labor hours, were
                                        used to develop performance measures and track
                                        performance achievements.



Postal Service’s Breakthrough Productivity        1                                    CQ-OT-02-001
 Initiative Awards Program
                                   •    The Employee and Labor Relations Manual sets policy
                                        guidance for incentive awards programs. See
                                        Appendix II for further details on the Postal Service's
                                        incentive awards policy guidance.

                                   Processing and delivery entities that met or surpassed
 Summary                           performance measures based on work hour savings were
                                   eligible for awards.

                                   In June 2001, Postal Service executives recognized that
                                   current award procedures must be revised to better match
                                   the behavior required for breakthrough performance.

                                   The OIG has started an audit of the Postal Service's
                                   breakthrough productivity initiative awards program.




Postal Service’s Breakthrough Productivity        2                                     CQ-OT-02-001
 Initiative Awards Program
                                              APPENDIX I
                                    FY 2001 BPI AWARD BREAKDOWN

                                                                               Amount Awarded
Award Category                                                    # Awardees    (Thousands)
Actual Delivery Performance Achievement

Achieved or surpassed delivery productivity goals
                                                                     990             $699
Actual Mail Processing Performance Achievement

Achieved or surpassed processing productivity goals
                                                                     986            $1,211
Most Improved Delivery Operation

Achieved or surpassed cost and workload reduction goals for
delivery                                                             947             $488
Most Improved Mail Processing Operations

Achieved or surpassed cost and workload reduction goals for
processing                                                           987             $900
Best in Class

Achieved or surpassed productivity goals beyond all others in
same class                                                           296             $331
Function 1 and 2

Achieved or surpassed productivity goals for plant processing
and delivery operations                                              430             $475
Large Plant

Achieved or surpassed productivity goals for large plant class       107             $174
Medium Large Plant

Achieved or surpassed productivity goals for medium plant class       69              $41
Small Plants

Achieved or surpassed productivity goals for small plant class       105              $62
Very Small Plant

Achieved or surpassed productivity goals for very small plant
class                                                                 11              $17
BPI General

Award category not specifically stated
                                                                     156             $377
Unknown

Documentation did not state award category                           612             $170

Total                                                               5,696           $4,945




Postal Service’s Breakthrough Productivity            3                        CQ-OT-02-001
 Initiative Awards Program
                                                      APPENDIX II
                                             ELM AWARD BREAKDOWN

 Executive and Administrative Schedule Recognition and Awards Program and Postal Career
                       Executive Service Noncash Recognition Only
      TYPE               AWARD                APPROVAL                REQUIREMENTS
                                              AUTHORITY
1.    Informal           Noncash:             Immediate               Nonmonetary award. Provides immediate positive feedback
      Award              less than $50        supervisors             and a special thanks for a job well done and for exemplifying
                         value; cash                                  noteworthy role modeling behavior.
                         equivalent;
                         noncash tangible,
                                                                      No limit on number.
                         or a letter of
                         appreciation
                                                                      Eligibility: All career executive and administrative schedule
                                                                      and Postal Career Executive Service employees.



2.    Spot               Cash: $50 to         Postmasters,            Provides immediate recognition for a specific action or
      Award              $2,000;              Managers grade          achievement beyond what is normally expected of an
                                              executive and           employee. No limit on number, but maximum of $2,000 cash
                         cash equivalent:     administrative          per employee per fiscal year (independent of Team Award
                         $50 to $2,000; or    schedule-22 and         dollar limit).
                                              above,
                         noncash tangible:    and Postal Career
                                                                      Eligibility: All career executive and administrative schedule
                         $50 to $2,000        Executive Service
                                                                      employees.



3.    Vice President’s   Cash: up to $5,000 Vice Presidents           Acknowledges and rewards superior individual contribution or
      Award                                                           achievement deserving of system-wide recognition.

                                                                      Eligibility: All career executive and administrative schedule
                                                                      employees and Postal Career Executive Service employees in
                                                                      executive administrative schedule positions.



4.    Team Award         Cash: $50 to         Vice Presidents         Rewards superior team contribution or achievement deserving
                         $2,000;                                      of system-wide recognition. The amount of an award should
                                                                      be commensurate with the magnitude of the effort or
                         cash equivalent:                             achievement.
                         $50 to $2,000;
                                                                      An executive and administrative schedule employee may
                         or noncash
                                                                      receive up to $2,000 in cash Team Awards in a fiscal year.
                         tangible: $50 to
                                                                      (Independent of Spot Award dollar limit.)
                         $2,000

                                                                      Eligibility: All career executive and administrative schedule
                                                                      employees. (Note: Postal Career Executive Service and
                                                                      Postal Career Executive Service in executive and
                                                                      administrative schedule positions are eligible for noncash
                                                                      awards only.)



5.    Exceptional        Cash: Up to          Management              Acknowledges and awards exceptional individual contribution
      Performance        $7,500               committee officers      and achievement deserving of system-wide recognition.
      Award                                   or Senior Vice
                                              President               Eligibility: All career executive and administrative schedule
                                                                      employees and Postal Career Executive Service employees in
                                                                      executive and administrative schedule positions.



Postal Service’s Breakthrough Productivity                        4                                       CQ-OT-02-001
 Initiative Awards Program
